      Evaluation Report




OIG-08-035
INFORMATION TECHNOLOGY: Network Security at the Office of the
Comptroller of the Currency Needs Improvement

June 03, 2008




Office of
Inspector General
Department of the Treasury
Contents


Evaluation Report........................................................................................... 3

    Results in Brief.............................................................................................. 3

    Background .................................................................................................. 5

    Findings and Recommendations…. .................................................................. 6

        Configuration Management Needs Improvement ........................................... 6
        Recommendations..................................................................................... 7

        Logical Access Control Needs To Be Strengthened ........................................7
        Recommendations..................................................................................... 9

        User Awareness of E-mail Social Engineering Needs Improvement .................. 9
        Recommendation ................................................................................... 10

        Wireless Security Needs Improvement ....................................................... 11
        Recommendations................................................................................... 12




    Appendices

    Appendix     1:      Objective, Scope, and Methodology ........................................               14
    Appendix     2:      Management Comments........................................................              15
    Appendix     3:      Major Contributors................................................................       18
    Appendix     4:      Distribution List ....................................................................   19




                       Network Security at the Office of the Comptroller of the Currency Needs            Page 1
                       Additional Improvement (OIG-08-035)
Abbreviations

CIO              Chief Information Officer
NIST             National Institute of Standards and Technology
OCC              Office of the Comptroller of the Currency
SP               Special Publication
TD P             Treasury Directive Publication




            Network Security at the Office of the Comptroller of the Currency Needs   Page 2
            Additional Improvement (OIG-08-035)
                                                                                        Evaluation
OIG
The Department of the Treasury
                                                                                          Report
Office of Inspector General




                       John C. Dugan
                       Comptroller of the Currency

                       The purpose of our evaluation was to assess the network security
                       of the Office of the Comptroller of the Currency (OCC). Our overall
                       objective was to determine whether sufficient protections exist to
                       prevent intrusions into OCC’s network, systems, or computer
                       equipment. To accomplish this objective, we used specialized
                       software to detect and exploit vulnerabilities in OCC’s systems. We
                       also performed two social engineering tests to assess users’
                       awareness of e-mail security threats and followed up on findings
                       from our prior report. 1 We performed our work from June through
                       December 2007. Appendix 1 contains a detailed description of our
                       objective, scope, and methodology.


Results in Brief
                       We determined that OCC has not established adequate security
                       controls to protect its network, systems, equipment, and data.
                       Specifically, we found high- and medium-severity vulnerabilities,
                       including one that allowed us to gain full access on one OCC
                       server. 2 We had four overall findings:

                       1. Configuration management needs improvement [repeat finding].
                       2. Logical access control needs to be strengthened [repeat
                          finding].

1
  Information Technology: Effective Security Controls Needed to Mitigate Critical Vulnerabilities in the
Office of the Comptroller of the Currency's Networked Information Systems, OIG-06-040 (Sep. 14,
2006).
2
  International Business Machines Internet Security Systems a company that provides security products
and services designed to protect organizations against Internet threats, defines high-severity
vulnerabilities as allowing immediate remote or local access, or immediate execution of code or
commands, with unauthorized privileges.

                     Network Security at the Office of the Comptroller of the Currency Needs    Page 3
                     Additional Improvement (OIG-08-035)
 3. User awareness of e-mail social engineering needs improvement
    [new finding].
 4. Wireless security needs improvement [new finding].

 Furthermore, we determined that, despite progress, some planned
 corrective actions addressing the findings and recommendations in
 our prior report remain incomplete. Table 1 lists unimplemented
 prior-year recommendations.

 Table 1: Unimplemented Prior-Year Recommendations

     Prior-year recommendations                           Current status
     Apply the latest service packs and security          Incomplete; see finding 1.
     updates for systems and applications.
     Disable or remove unused options and                 Incomplete; see finding 1.
     services for compact discs and optional
     subsystems.
     Correct password security measures in OCC’s          Incomplete; see finding 2.
     systems to meet OCC’s policy requirements.



 Consequently, we reiterate these recommendations from our prior
 report.

 Upon completion of our fieldwork, we provided four Notifications
 of Findings and Recommendations, which included 21
 recommendations (including incomplete recommendations), to the
 Chief Information Officer (CIO) of OCC. The CIO concurred with
 our findings and recommendations and provided plans for
 corrective actions. Due to the sensitivity of the recommendations,
 we summarized them as follows for this report:

 1. Apply the latest service packs and security updates for systems
    and applications [repeat recommendation].
 2. Disable or remove unnecessary or unused services running on
    OCC systems [repeat recommendation].
 3. Reconfigure system services with more secure options [new
    recommendation].
 4. Implement security configurations required by Treasury Directive
    Publication (TD P) 85-01 and OCC policies [new
    recommendation].

Network Security at the Office of the Comptroller of the Currency Needs       Page 4
Additional Improvement (OIG-08-035)
              5. Ensure that the principle of least privilege is enforced and
                 applied to all OCC computer users as required by OCC policy
                 [new recommendation].
              6. Ensure that account management and access controls are
                 adequate for OCC systems [new recommendation].
              7. Correct password security measures in OCC’s systems to meet
                 policy requirements [repeat recommendation].
              8. Improve user awareness training on e-mail security, phishing,
                 and incident reporting [new recommendation].
              9. Ensure that appropriate wireless access restrictions exist [new
                 recommendation].
             10. Ensure OCC users are trained on the security risks of
                 connecting to unapproved or unknown wireless networks [new
                 recommendation].


              Upon completion of our fieldwork, we provided the CIO a
              crosswalk linking the summary recommendations listed above to
              the 21 recommendations provided in the Notifications of Findings
              and Recommendations. As noted in appendix 2, OCC management
              concurred with our recommendations. We agreed that the formal
              steps the Comptroller has taken are responsive to the intent of the
              recommendations.


Background
              OCC was created by Congress to charter national banks, to
              oversee a nationwide system of banking institutions, and to assure
              that national banks are safe and sound, competitive and profitable,
              and capable of serving in the best possible manner the banking
              needs of their customers. OCC’s network and systems are integral
              parts of its mission support structure. Several of OCC’s systems
              contain personally identifiable information collected during
              examinations and other oversight activities. By law, OCC is
              prohibited from releasing information from its bank safety and
              soundness examinations to the public.




             Network Security at the Office of the Comptroller of the Currency Needs   Page 5
             Additional Improvement (OIG-08-035)
             Because OCC’s network computers are connected with each other,
             other bureaus’ networks, and the Internet, it is important that
             proper configurations and controls be in place to ensure that only
             authorized users are granted access. Unauthorized access to OCC’s
             network could provide an intruder with the opportunity to
             compromise the confidentiality, integrity, and availability of
             sensitive information. Once inside, unauthorized users could
             extract, delete, or modify sensitive data; discover user names and
             passwords; and launch denial-of-service attacks. Undetected, such
             activities could hinder OCC’s mission and undermine public faith in
             the safety of banking information.


Findings and Recommendations

Finding 1    Configuration Management Needs Improvement

             We determined that configuration management needs
             improvement. We found that several servers were missing critical
             patches. Also, unnecessary or insecure services were running on
             systems, and system services were configured with insecure
             options. We also found several high- and medium-severity
             vulnerabilities that did not meet the configuration management
             requirements set forth by the National Institute of Standards and
             Technology (NIST); TD P 85-01, “Treasury Information Technology
             Security Program” ( Nov. 3, 2006); and OCC. Some of these
             vulnerabilities were repeat findings from our previous report. In
             particular, we exploited successfully the vulnerability on one of the
             servers and gained full, unauthorized access to this system with
             the local administrative privilege.

             TD P 85-01 requires bureaus to ensure that security patches are
             tested and installed on a timeline in accordance with the criticality
             of the patches. NIST Special Publication (SP) 800-53,
             “Recommended Security Controls for Federal Information
             Systems,” recommends that the organization configure the
             information system to provide only essential capabilities and
             specifically prohibits or restricts the use of the functions, ports,
             protocols, and/or services as defined by the agency. “OCC

            Network Security at the Office of the Comptroller of the Currency Needs   Page 6
            Additional Improvement (OIG-08-035)
             Information and Security Program: Policies, Standards, and
             Required Controls” states that OCC reviews the functions and
             services provided by information systems, or individual components
             of information systems, to determine which functions and services
             (e.g., VoIP, IM, FTP, HTTP, file sharing) are not essential for
             mission objectives.

             Failure to apply up-to-date patches precluded OCC from adequately
             protecting systems on its network from virus infection and hacker
             attacks. Also, unnecessary or insecure services, including services
             configured with insecure options, could result in a larger potential
             attack surface, more potential entry points, information disclosure,
             or additional overhead to maintain unneeded functionality.

             Recommendations

             We recommend that the Comptroller of the Currency do the
             following:

             1. Apply the latest service packs and security updates for systems
                and applications [repeat recommendation].
             2. Disable or remove unnecessary or unused services running on
                OCC systems [repeat recommendation].
             3. Reconfigure system services with more secure options [new
                recommendation].
             4. Implement security configurations required by TD P 85-01 and
                OCC policies [new recommendation].


Finding 2    Logical Access Control Needs To Be Strengthened

             We determined that logical access control needs to be
             strengthened. We found that OCC did not follow the principle of
             least-privileged user account to ensure that users always log on
             with limited privileges. Specifically, local administrative privileges
             were given out excessively. We also found that OCC had
             inadequate account management procedures, insufficient access
             controls for Windows shares, and weak authentication measures,
             resulting in security vulnerabilities.


            Network Security at the Office of the Comptroller of the Currency Needs   Page 7
            Additional Improvement (OIG-08-035)
 NIST SP 800-53 requires that the information system enforce the
 most restrictive set of rights/privileges or accesses needed by users
 (or processes acting on behalf of users) for the performance of
 specified tasks. In addition, OCC policy requires that all accounts
 be role-based and implemented through role-based group
 membership. No individual role should be allowed to cross
 system/application or environment boundaries. Moreover, “OCC
 Information Security Program: Policies, Standards, and Required
 Controls” requires users to identify themselves and authenticate
 their identity using unique credentials before they can access OCC
 information systems and provides specific password requirements.

 Appendix III to Office of Management and Budget Circular No. A-
 130, “Security of Federal Automated Information Resources,”
 requires that a number of technical, operational, and management
 controls be used in every general support system to prevent and
 detect security breaches or violations. Such controls include least
 privilege, which is the practice of restricting a user’s access (to
 data files, processing capability, or peripherals) or type of access
 (read, write, execute, and delete) to the minimum necessary to
 perform his or her job. In addition, an individual should be assigned
 to be a focal point for assuring that security within the system,
 including ways to prevent, detect, and recover from security
 problems, is adequate.

 If the principle of least privilege is not enforced to ensure that users
 always log on with the minimum necessary access, attacks could
 be more likely to succeed. A user or a program with local
 administrative rights could make system wide changes, either
 intentionally or accidentally, making it far easier for malicious
 software to be installed on that computer.

 In addition, if OCC does not enforce password security measures
 that meet Treasury policy requirements, the existing vulnerabilities
 could directly compromise OCC’s network and systems by allowing
 attackers immediate access as privileged users, such as
 administrators, using widely known hacker programs.



Network Security at the Office of the Comptroller of the Currency Needs   Page 8
Additional Improvement (OIG-08-035)
                       Recommendations

                       We recommend that the Comptroller of the Currency do the
                       following:

                       5. Ensure that the principle of least privilege is enforced and
                          applied to all OCC computer users as required by OCC policy
                          [new recommendation].
                       6. Ensure that account management and access controls for OCC
                          systems are adequate [new recommendation].
                       7. Correct password security measures in OCC’s systems to meet
                          Treasury’s policy requirements [repeat recommendation].

Finding 3              User Awareness of E-mail Social Engineering Needs
                       Improvement

                       We determined that user awareness of social engineering via e-mail
                       needs improvement. We conducted two e-mail social engineering
                       awareness tests at OCC. In the first test, we sent an e-mail
                       containing a link to malicious code that resided on our laptop to
                       1000 e-mail addresses. Although OCC’s countermeasures
                       prevented the code from running, 194 users accessed this link.
                       During the second test, we sent a phishing e-mail to 2,783 e-mail
                       addresses with a link to a spoofed Web site set up on our laptop
                       asking users to enter their passwords. 3 Two hundred twenty-nine
                       users accessed this link, and 153 entered their passwords. The
                       OCC Computer Incident Response Center reported 105 user calls
                       the day of the first test and 183 user calls the day of the second.
                       The average daily calls for the weekday over the 3-month period
                       during which the tests occurred was 94. Only one user actually
                       admitted clicking on the link used during the second test.

                       “OCC Information Security Program: Policies, Standards, and
                       Required Controls” states the following:



3
  Phishing is an e-mail fraud method in which the perpetrator sends out legitimate-looking e-mail in an
attempt to gather information from recipients. A spoofed Web site is a site designed to look like a
legitimate site, sometimes using components from a legitimate site, that is intended to deceive.

                     Network Security at the Office of the Comptroller of the Currency Needs     Page 9
                     Additional Improvement (OIG-08-035)
 •   OCC users shall safeguard authenticators by maintaining
     possession of their individual authenticators; not loaning or
     sharing authenticators with others; and reporting lost or
     compromised authenticators immediately.

 •   OCC employees and contractors are responsible for: preserving
     the security of OCC systems; all actions and functions
     performed using their identification and authentication
     credentials; compliance with password policies; securing the
     confidentiality of their identification and authentication
     credentials; and immediately reporting suspicious system
     activity noted during logon to local resident technical
     associates.

 •   OCC employees and contractors are responsible for reporting
     security incidents or suspected incidents to local Technical
     Support Representatives.

 The ability of attackers to convince large numbers of OCC
 employees and contractors to connect to unknown Web sites and
 provide sensitive information could undermine the security of
 OCC’s network. This threat was compounded by the fact that only
 1 out of 229 users who accessed the phishing site reported the
 potential security breach. In a real attack, the incident could have
 led to the unreported disclosure of user passwords. As a result,
 unauthorized people could have gained access to the OCC network
 or user accounts.

 Recommendation

 We recommend that the Comptroller of the Currency do the
 following:

 8. Improve user awareness training on e-mail security, phishing,
    and incident reporting [new recommendation].




Network Security at the Office of the Comptroller of the Currency Needs   Page 10
Additional Improvement (OIG-08-035)
Finding 4    Wireless Security Needs Improvement

             We determined that OCC’s wireless security needs improvement.
             OCC users have the ability and authorization to connect to
             potentially malicious wireless systems with their OCC laptops.
             According to OCC management, OCC users did not receive any
             training regarding the risks of connecting to unauthorized wireless
             networks. Our testing enabled 21 OCC laptops to connect to a
             fake access point that we had set up.

             “OCC Information Security Program: Policies, Standards, and
             Required Controls” states that OCC allows the use of wireless
             technologies only if an authorizing official approves the use; strong
             authentication and identification methods are used; approved
             encryption is used; and networks are scanned for rogue access
             points.

             TD P 85-01 requires that bureaus takes steps to protect their
             wireless networks, including establishing usage restrictions and
             implementation guidance for wireless technologies and
             documenting, monitoring, and controlling wireless access to the
             information system. Also, bureaus are required to employ security
             mechanisms for wireless networks consistent with the sensitivity
             of the information to be transmitted.

             NIST SP 800-48, “Wireless Network Security: 802.11, Bluetooth,
             and Handheld Devices,” provides additional guidance on wireless
             network security, with particular emphasis on Institute of Electrical
             and Electronics Engineers 802.11b and Bluetooth standards.

             If OCC’s systems were connected to an attacker’s wireless access
             point, an attacker could establish fake services to obtain
             information from the connected systems, gain access to OCC's
             LAN, or establish a man-in-the-middle set-up to view information
             transmitted via wireless from the attached systems.




            Network Security at the Office of the Comptroller of the Currency Needs   Page 11
            Additional Improvement (OIG-08-035)
 Recommendations

 We recommend that the Comptroller of the Currency do the
 following:

 9. Ensure that appropriate wireless access restrictions exist. [new
    recommendation].
10. Ensure that OCC users are trained on the security risks of
    connecting to unapproved or unknown wireless networks [new
    recommendation].




Network Security at the Office of the Comptroller of the Currency Needs   Page 12
Additional Improvement (OIG-08-035)
                                    ******

 I would like to extend my appreciation to the OCC CIO and OCC
 staff for the cooperation and courtesies extended to my staff
 during the evaluation. If you have any questions, please contact
 me, at (202) 927-5171 or Gerald J. Steere, IT Specialist, Office of
 Information Technology Audits, at (202) 927-6351. Major
 contributors to this report are listed in appendix 3.

 /s/


 Tram J. Dang, Acting Director
 Office of Information Technology Audits




Network Security at the Office of the Comptroller of the Currency Needs   Page 13
Additional Improvement (OIG-08-035)
                          Appendix 1
                          Objective, Scope, and Methodology


                          The overall objective was to determine whether sufficient
                          protections exist to prevent intrusions into the Office of the
                          Comptroller of the Currency (OCC) network, systems or computer
                          equipment. This evaluation is included in the Office of Inspector
                          General Annual Plan for 2007. 4 In addition, the results of this
                          evaluation may be used to support our Department of the Treasury
                          work undertaken in accordance with the requirements of the
                          Federal Information Security Management Act. We performed our
                          fieldwork at OCC locations and the Treasury Office of Inspector
                          General in Washington, D.C., from June through December 2007.
                          We conducted our evaluation in accordance with the President’s
                          Council on Integrity and Efficiency’s Quality Standards for
                          Inspections.

                          We performed most logical tests from within OCC’s network and
                          from the Internet. 5 We did not prioritize or rank the security
                          vulnerabilities detected by the tools used, nor did we evaluate the
                          remedies for the vulnerabilities identified. In conducting our review,
                          we used specialized software to conduct the vulnerability scanning
                          and penetration testing. We also performed two social engineering
                          tests to evaluate user awareness and responsibility in protecting
                          computer equipment.

                          Upon completion of our tests, we provided OCC management with
                          reports generated by our tools and evidence of findings. The
                          reports provided details on specific vulnerabilities detected and
                          exploited and the suggested actions needed to address them. We
                          also provided OCC management with Notifications of Findings and
                          Recommendations so that corrective actions could be implemented
                          immediately




4
    See OIG, Annual Plan Fiscal Year 2007, p. 32.
5
    Logical tests are tests that exploit vulnerabilities in the computer’s software.


                        Network Security at the Office of the Comptroller of the Currency Needs   Page 14
                        Additional Improvement (OIG-08-035)
 Appendix 2
 Management Comments




Network Security at the Office of the Comptroller of the Currency Needs   Page 15
Additional Improvement (OIG-08-035)
 Appendix 2
 Management Comments




Network Security at the Office of the Comptroller of the Currency Needs   Page 16
Additional Improvement (OIG-08-035)
 Appendix 2
 Management Comments




Network Security at the Office of the Comptroller of the Currency Needs   Page 17
Additional Improvement (OIG-08-035)
 Appendix 3
 Major Contributors

 Office of Information Technology Audits

 Louis C. King, Former Director
 Tram J. Dang, Acting Director
 Gerald J. Steere, IT Specialist (Lead)
 Abdirahman M. Salah, IT Specialist
 Kenneth Harness, Referencer




Network Security at the Office of the Comptroller of the Currency Needs   Page 18
Additional Improvement (OIG-08-035)
 Appendix 4
 Distribution List

 Office of the Comptroller of the Currency

     Chief Information Officer

 Department of the Treasury

     Office of Accounting and Internal Control
     Office of Strategic Planning and Performance Management
     Office of Chief Information Officer

 Office of Management and Budget

     Office of Inspector General Budget Examiner




Network Security at the Office of the Comptroller of the Currency Needs   Page 19
Additional Improvement (OIG-08-035)
